2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
NO.
BAHARMIKHAK,
Petitioner,
v.
UNIVERSITY OF PHOENIX,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
BAHAR MIKHAK
PETITIONER PRO SE
25595 COMPTON COURT
APT 103
HAYWARD, CA 94544
(415)845-0141
MIKHAKB@HOTMAIL.COM

Subscribed and sworn to before me this 27th day of January, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

& -/SJkfa' 0u*jbiOt<b^
Notary Public

Affiant

39116

SERVICE LIST
Karin Morgan Cogbill
Littler Mendelson, P.C.
50 West San Fernando Street
7th Floor
San Jose, CA 95113
408-998-4150
Fax: 408-287-8040
Email: kcogbill@littler.com

